                                                     NATlONAL SCIENCE FOLTNDATlON
                                                      OFFICE OF INSPECTOR GENERAL
                                                        OFFICE OF INVESTIGATIONS

                                               CLOSEOUT MEMORANDUM

)I/
  Case Number: A-07070039
                                                                                    11           Page 1 of 1
                                                                                                                  11
           We received an allegation from the complainant1that a NSF proposal, submitted by three
           s ~ b j e c t scontained
                          ,~        ideas that appeared to be the same as ideas (intellectual theft) the
           complainant presented in earlier NSF proposals.3

           Our review showed that there was no verbatim plagiarism involved between any of the subjects'
           or the complainant's proposals. Further, our review showed that, although the ideas presented in
           the coinplainant's proposals and the subjects' recent proposal were to exainii-ze the sanle concept,
           the approaches and techniques to perfonn the examinations were different. Finally, the general
           topic that each group was attempting to examine was not unique.

           This case is closed and no fui-ther action will be taken.




 NSF OIG   Fo1.l~2   ( I 1/02)
